PROOF OF SERVICE
NO.
IN THE SUPREME COURT OF THE UNITED STATES PETITION FOR A
WRIT OF MANDAMUS
In Re. RAVI S. VAIDYANATHAN, Petitioner

PROOF OF SERVICE

I, RAVI S. VAIDYANATHAN, do swear or declare that on this date, 31st DECEMBER,
2020, as required by Supreme Court Rule 29,1 have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
MANDAMUS on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid,for delivery within 3 calendar days.
The names and addresses of those served are as follows:
DR. CHRISTOPHER S. HILL

MISS KARLEE LINDHARDT

JURIS DOCTOR

SPRECKELS MANSION

ATTORNEY AT LAW

2080 WASHINGTON STREET,

50 EAST SOUTH TEMPLE

SAN FRANCISCO, CA, 94109

SUITE 400
SALT LAKE CITY, UT, 84111
PRESIDENT TRUMP

MS MELANIA TRUMP

HONORABLE PRESIDENT OF

HONORABLE FIRST LADY OF

THE UNITED STATE OF AMERICA

THE UNITED STATE OF AMERICA

1600 PENNSYLVANIA AVENUE NW

1600 PENNSYLVANIA AVENUE NW

WASHINGTON, DC, 20500

WASHINGTON, DC, 20500
19

SISTER MELANIE BELL

MS MEAGAN BOLTON

2120 SKY VIEW COURT

990 VILLAGE SQUARE, SUITE G1100

MORAGA

TOMBALL

CA

TX

94556

77375

MS. JUDITH M. FINCH

MS KRISTY OFFENBURGER

6145 CASTLE DR

P.O. BOX 750116

OAKLAND

DALLAS

CA

TX

94611

75275-0116

MS. DAKOTA JOHNSON
C/O WILLIAM MORRIS ENDEAVOR
ENTERTAINMENT
9601 WILSHIRE BLVD, 3RD FLOOR
BEVERLY HILLS
CA
90210-5213

20

I declare under penalty of perjury that the foregoing is true and correct. Executed on
31st DECEMBER, 2020

(RAVI S. VAIDYANATHAN)

21

